<html>
<title> - IRAN SANCTIONS: OPTIONS, OPPORTUNITIES AND CONSEQUENCES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




        IRAN SANCTIONS: OPTIONS, OPPORTUNITIES AND CONSEQUENCES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2009

                               __________

                           Serial No. 111-43

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
55-100 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERRY E. CONNOLLY, Virginia          JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSPEH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
HENRY CUELLAR, Texas                 BLAINE LUETKEMEYER, Missouri
MIKE QUIGLEY, Illinois
                     William Miles, Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 15, 2009................................     1
Statement of:
    Maloney, Suzanne, senior fellow, the Brookings Institution; 
      George Lopez, professor of peace studies, University of 
      Notre Dame; Robin Wright, Jennings Randolph fellow, U.S. 
      Institute of Peace; and Ambassador James Dobbins, director, 
      Rand International Security and Defense Policy Center......    10
        Dobbins, Ambassador James................................    45
        Lopez, George............................................    22
        Maloney, Suzanne.........................................    10
        Wright, Robin............................................    32
Letters, statements, etc., submitted for the record by:
    Dobbins, Ambassador James, director, Rand International 
      Security and Defense Policy Center, prepared statement of..    48
    Lopez, George, professor of peace studies, University of 
      Notre Dame, prepared statement of..........................    25
    Maloney, Suzanne, senior fellow, the Brookings Institution, 
      prepared statement of......................................    14
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Letter dated December 11, 2009...........................     8
        Prepared statement of....................................     4
    Wright, Robin, Jennings Randolph fellow, U.S. Institute of 
      Peace, prepared statement of...............................    36

 
        IRAN SANCTIONS: OPTIONS, OPPORTUNITIES AND CONSEQUENCES

                              ----------                              


                       TUESDAY, DECEMBER 15, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Quigley, Foster, 
Duncan, Flake, Jordan, and Leutkemeyer.
    Staff present: Mariana Osorio, Daniel Murphy, Matt Ploszek, 
Aaron Wasserman, and Robyn Russell, legislative assistants; 
Andy Wright, staff director; Elliot Gillerman, clerk; Talia 
Dubovi, counsel; Adam Fromm, minority chief clerk and Member 
liaison; Tom Alexander, minority senior counsel; Christopher 
Bright, minority senior professional staff member; and Brien 
Beattie, minority professional staff member.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs' hearing entitled, ``Iran 
Sanctions: Options, Opportunities and Consequences,'' will come 
to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, it is so ordered.
    Good morning, particularly to our witnesses, who were kind 
enough to come here and share their testimony with us today.
    We are going to examine an important and timely national 
security issue in the options and effectiveness of sanctions 
against the Islamic Republic of Iran.
    2009 has been a turbulent year in U.S.-Iran relations. Last 
January we inaugurated a President ready to pursue diplomatic 
engagement, and this past April marked the 30th year of the 
Islamic Republic's history. In November we remembered the 30th 
anniversary of the Iran hostage crisis, and the June 12th 
Presidential election and its tumultuous aftermath shook Iran's 
government like no other event in the last 30 years. In 
September, United States and Iranian officials held direct 
bilateral talks at the highest level since Iran's Revolution; 
yet Iran and its nuclear program still present significant 
challenges to the United States and to the international 
community.
    Nearly a year after President Obama extended a hand to Iran 
in his inaugural address, we have yet to see Iran unclench its 
fist. Instead, Iran continues to develop its nuclear program in 
the shadows. It claims that its nuclear program is designed for 
peaceful civilian purposes; yet, it refuses to cooperate fully 
and transparently with the International Atomic Energy Agency 
and its inspectors. That raises significant concerns about the 
true nature and intent of Iran's nuclear ambitions.
    Last September, the United States, along with its allies, 
disclosed that Iran had long been building a secret nuclear 
reactor in Qom. This revelation was followed last month by an 
official U.N. resolution condemning Iran's failure to disclose 
the site, as required under the Nuclear Non-Proliferation 
Treaty. The resolution was approved with strong international 
support by a 25 to 3 vote, with both Russia and China voting in 
favor of condemning Iran.
    There are many strong options, both within the United 
States and around the world, on how best to manage the many 
challenges that Iran presents. I think that many of us support 
the President's strategy of engagement, but if that fails to 
bear fruit, then a lot of us are contemplating what must be the 
next step, and that is what brings us together here today. We 
have assembled a distinguished panel of experts to share with 
us their thoughts on the vital national security question at 
hand.
    Just on the personal side of this, I just want to make a 
couple points. I don't think that anybody condones the fact 
that Iran has nuclear weapons or is moving in that direction, 
and we think that Iran with nuclear weapons is a major threat 
to American interests. It is a threat to Israel, a threat to 
peace and stability in the Middle East. Any program to which 
they may have a right, as a party to the Nuclear Non-
Proliferation Treaty, must be peaceful, civilian, open, 
transparent, and subject to inspection by the International 
Atomic Energy Agency.
    Disclosure of previously secret nuclear facilities, as we 
have seen, and the threat to replicate that 10 times over, and 
a general unwillingness to reasonably engage with the 
international community, obviously, all of those behaviors 
exhibited by Iran cause concern. The United States and the 
international community has made, I think, a considerable 
effort to negotiate and engage, which has yet to be 
reciprocated. That was a test for Iran's leadership. If it was 
serious about its claims that only a civilian nuclear program 
was being pursued, there was no reason it should not have 
agreed to export to Russia or elsewhere and allow the IAEA 
inspections.
    So what are our options? Governments and intelligence 
agencies and other experts agree, or disagree, I should say, on 
how close Iran is to developing a bomb. Also, many of them 
agree that any military strike on facilities would likely only 
delay development by only 1 or 2 years and cause other 
repercussions. There is considerable disagreement and debate on 
the value, effect, nature, impact, or usefulness of sanctions. 
Arguably, sanctions should be used to support, not replace, 
diplomatic efforts. Should Iran delay negotiations, or if the 
negotiations should fail, then many feel that strong 
multilateral sanctions by the international community would be 
in order, if they were targeted and effective in that regard.
    Now, with respect to the Iran Refined Petroleum Sanctions 
Act of 2009, which the House will be considering this week, 
personally, I have considerable concerns. The hardliners are in 
some disarray presently. New sanctions could allow them to 
consolidate their hold on power and get bolstered support from 
the Iranian people. Sanctions could heighten support from Mr. 
Ahmadinejad out of some nationalistic feeling or resentment for 
how devastating the effect of sanctions might be on the 
civilian population. It is notable that the two main opposition 
leaders have spoken against imposition of sanctions, 
particularly with regard to refined petroleum products.
    The restriction on refined oil products could probably be 
assumed to affect the poor and the middle class in Iran, but it 
is unlikely that the elites and the Islamic Revolutionary Guard 
Corps, in particular, would be deprived of the use of any 
gasoline or other refined products that would come in. And, in 
fact, they might control any market that existed in them.
    So we have a large question here to answer. I think Jeff 
and others may have a different opinion on that, but I could 
only support the IRPSA if I was assured that its current 
language--which I read to mandate the sanctions, as opposed to 
provide the flexibility of the President to implement them--
would either be delayed to a more appropriate time on the 
diplomatic pressure process that the administration is 
following or if they will be modified, prior to passage, to 
provide the President more flexibility. If we get those 
assurances, then we may get it through the House so that it can 
go to the Senate and be modified in conference there, if 
necessary.
    Only with more flexibility in exercising sanction authority 
might the President secure greater cooperation from our 
partners in taking effective action and ultimately facilitate a 
change in Iranian policies. Now is a critical stage in the 
intense diplomatic process, as we seek to impose significant 
international pressure on Iran. I think the legislator ought to 
take care not to harm those prospects as they go forward.
    So it is with interest that we listen to our experts on the 
panel here today. We want to make sure that we move in the 
proper way and the most effective way, and we welcome you and 
thank you for your testimony.
    [The prepared statement of Hon. John F. Tierney follows:]
    

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. With that, I defer to Mr. Flake for his 
opening remarks.
    Mr. Flake. I thank the chairman. I look forward to today's 
hearing.
    I, myself, am not a fan of economic sanctions, particularly 
those imposed unilaterally, so it has to be a pretty high bar, 
in my view, to go this direction. I share the chairman's 
concern about the refined petroleum sanctions. I note that 
there is not a virulently anti-American feeling in Iran among 
the population, and I hope we can keep it that way; and I am 
concerned about changing that. I think that we can all agree--
and in reading your testimony I think we all agree--that these 
sanctions will only be really effective if they are 
multilateral, if we convince our international partners to come 
with us. My concern is, and my questions will be surrounding, 
whether or not moving ahead on a unilateral basis is more 
likely to bring our partners along, or if simply giving the 
President more flexibility in this regard would be a better 
option.
    I hear all the time we are simply leading on this, we are 
simply expressing our feelings, that this doesn't tie the hands 
of the administration. Sometimes you don't start that way, but 
within months or the next year you are tying the hands of the 
administration, and I would point to Cuba as a perfect example. 
When you have the Helms-Burton Act and other legislation, the 
President's hands are tied; there are very severe limits on 
what the President can do in response to action on the part of 
the Cubans or in any other direction. So while this may not 
start out as an attempt to tie the President's hands, it may 
quickly evolve into something that does, and that concerns me 
as well.
    So thank you all for being here and I look forward to the 
testimony.
    Mr. Tierney. Thank you very much.
    I ask unanimous consent to enter into the record the Deputy 
Secretary of State's letter to Senator Kerry, the chairman of 
the Committee on Foreign Relations in the U.S. Senate, on this 
issue. Basically, the letter indicates that he is following up 
on a conversation that James Steinberg, the Deputy Secretary of 
State, had with Senator John Kerry, the chairman of the Senate 
Foreign Relations Committee, regarding Iran and possible 
sanctions legislation to be taken up in the Senate; and that 
bill, S. 2799, is very close to the IRPSA bill that we are 
looking at here.
    ``The Administration shares Congress's concerns on Iran and 
its nuclear program and the need to take decisive action. One 
of the top national security priorities for the Obama 
Administration is to deny Iran a nuclear weapons capability. As 
we discussed, we are pursuing this objective through a dual 
track strategy of engagement and pressure; and we are engaged 
in intensive multilateral efforts to develop pressure track 
measures now. It is in the spirit of these shared objectives 
that I write to express my concern about the timing and content 
of this legislation.''
    ``As I testified before the Congress in October, it is our 
hope that any legislative initiative would preserve and 
maximize the President's flexibility, secure greater 
cooperation from our partners in taking effective action, and 
ultimately facilitate a change in Iranian policies. However, we 
are entering a critical period of intense diplomacy to impose 
significant international pressure on Iran. This requires that 
we keep the focus on Iran.''
    ``At this juncture, I am concerned that this legislation, 
in its current form, might weaken rather than strengthen 
international unity and support for our efforts. In addition to 
the timing, we have serious substantive concerns, including the 
lack of flexibility, inefficient monetary thresholds and 
penalty levels, and blacklisting that could cause unintended 
foreign policy consequences.''
    ``I have asked the Department staff to prepare for and 
discuss with your staff revisions that could address these 
concerns on timing and content. I am hopeful that we can work 
together to achieve our common goals.''
    ``I hope the consideration of this bill could be delayed to 
the new year so as not to undermine the Administration's 
diplomacy at this critical juncture. I look forward to working 
together to achieve our common goals, and I will stay in close 
contact with you as our diplomatic efforts proceed,'' by James 
Steinberg, the Deputy Secretary of State.''
    I ask that it be entered into the record with unanimous 
consent. So ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Now we will receive our testimony from the 
panel before us today. I will just give a brief introduction of 
our witnesses as they appear on the panel.
    Dr. Suzanne Maloney is a senior fellow with the Brookings 
Institution's Saban Center for Middle East Policy. Her work 
there focuses primarily on Iran and also on other Persian Gulf 
security and energy issues. From 2005 to 2007, Dr. Maloney 
served on the staff of the State Department's Office of Policy 
Planning. She has previously held positions with the Council on 
Foreign Relations and the Exxon Mobil Corp. Dr. Maloney holds a 
Ph.D. from the Fletcher School of Law and Diplomacy at Tufts 
University.
    Dr. George Lopez currently serves as a senior fellow at the 
U.S. Institute of Peace, where he focuses on international 
sanctions and post-sanctions economies. He is also professor 
and chair at the Kroc International Institute for International 
Peace Studies at the University of Notre Dame, where he has 
taught since 1986. Dr. Lopez has published several books on the 
implementation of international sanctions, arms embargoes, and 
other non-military means of countering terrorism. Dr. Lopez 
holds a Ph.D. from Syracuse University.
    Ms. Robin Wright also currently serves as a senior fellow 
at the U.S. Institute of Peace, where she focuses on Iran, the 
Middle East, and the broader Islamic world. Ms. Wright has 
reported from more than 140 countries on six continents for a 
wide range of publications, including, most recently, the 
Washington Post. She is also a regular contributor to Time 
Magazine on the topic of Iran. Ms. Wright is the author of 
several books on Iran and the Middle East, including, most 
recently, Dreams and Shadows: The Future of the Middle East. 
She holds a B.A. and an M.A. from the University of Michigan.
    Ambassador James Dobbins is the director of International 
Security and Defense Policy Center at the RAND Corp. He has 
held a number of positions in government, including U.S. 
representative to the December 2001 Bonn Conference, where he 
worked directly with Iran in helping to reestablish a 
government in Afghanistan after the fall of the Taliban. 
Ambassador Dobbins also formerly served as Assistant Secretary 
of State for Europe and as Special Assistant to the President. 
He holds a B.S. from Georgetown University.
    So thank you, to all our distinguished witnesses, for 
making yourselves available today. I know at least Dr. Maloney 
and Ambassador Dobbins have testified before this subcommittee 
before, so we welcome you back.
    It is the policy of this committee to swear in all 
witnesses before we begin our testimony, so I ask that all of 
you please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses answered in the affirmative.
    I tell you what I think you already know, that all of your 
written statements will be entered in the record by unanimous 
consent. We try to limit the testimony to about 5 minutes, if 
possible, so that we will have time for questions and answers 
after that.
    Dr. Maloney, if you would be kind enough to start with your 
testimony.

  STATEMENTS OF SUZANNE MALONEY, SENIOR FELLOW, THE BROOKINGS 
    INSTITUTION; GEORGE LOPEZ, PROFESSOR OF PEACE STUDIES, 
   UNIVERSITY OF NOTRE DAME; ROBIN WRIGHT, JENNINGS RANDOLPH 
FELLOW, U.S. INSTITUTE OF PEACE; AND AMBASSADOR JAMES DOBBINS, 
DIRECTOR, RAND INTERNATIONAL SECURITY AND DEFENSE POLICY CENTER

                  STATEMENT OF SUZANNE MALONEY

    Dr. Maloney. Thank you very much, Chairman Tierney, 
Congressman Flake, and members of the committee for this 
opportunity to discuss the prospects and implications of using 
sanctions to influence the behavior of the Islamic Republic of 
Iran. I will summarize my testimony, which has been submitted 
in longer written form.
    I find it predictably ironic that, less than a year after 
the Obama administration began its efforts to engage the 
Iranians in a comprehensive diplomatic dialog, the discourse in 
Washington and around the world has already shifted toward an 
enthusiastic embrace of punitive measures. The search for 
alternative mechanisms for influencing Iran is completely 
understandable given the current context both in terms of the 
increasing crackdown within Iran, as well as Iran's repeated 
rebuffs of the offers of the Obama administration and the rest 
of the international community to engage in a serious dialog.
    At the same time, I think it is unfortunate that the track 
record for sanctioning Iran is really not an auspicious one, 
and the key prerequisites for a successful sanctions-oriented 
approach--protracted duration and broad adherence--are almost 
certainly unattainable today with respect to Iran. There are 
some more promising indications of a more conducive context, 
but that is no guarantee of success.
    In my testimony, I will speak briefly about that track 
record, but I will conclude by laying out a series of 
principles that should guide our consideration of any new 
coercive measures.
    We have had 30 years of U.S. unilateral sanctions on Iran, 
and there should be no illusions that the likelihood of a more 
rigorous and more broadly-implemented sanctions regime will 
produce a reversal of Iran's nuclear calculus quickly or 
easily. Thirty years of sanctions have not accomplished their 
primary objective, which is the moderation of Iran's security 
and foreign policy. This has largely been a function of the 
lack of international consensus.
    Moving forward today, despite tough talk from various 
European leaders, and the new cooperation between Washington 
and Moscow on Iran, the prospect for expanding the playing 
field on sanctions will still prove daunting, largely because 
of our divergent perspectives. In Washington, we tend to see a 
direct relationship between economic pressure and eventual 
moderation of the target leadership. Many of our allies have 
exactly the opposite perspective: they fear that, once isolated 
from the international community, Tehran will be further 
radicalized and may retaliate either by a direct action against 
governments that have supported sanctions, or by accelerating 
their nuclear efforts or withdrawing from the NPT.
    The irony is that neither the American nor the European 
perspective on sanctions is actually borne out by Iranian 
history. Iran's response to the repeated use of sanctions by 
Washington has neither involved capitulation to demands or 
radicalization. Instead, the regime typically seeks refuge in 
denial, while expanding a great deal of effort on trying to 
mitigate the impacts of sanctions through smuggling, through 
promotion of substitute industries, and through economic 
diplomacy. Specifically with respect to IRPSA, Iran has been 
preparing for a possible embargo on imports of gasoline and 
other refined petroleum products through a variety of official 
schemes to minimize gasoline consumption and to establish 
strategic stockpiles of gasoline.
    More broadly, Iran's post-Revolutionary experience 
contradicts the underlying American argument in support of 
sanctions. The Islamic Republic has experienced a number of 
episodes of severe economic pressure, but none has generated 
the kind of foreign policy moderation that the sponsors of 
IRPSA or the other manifold punitive measures against Tehran 
tend to forecast. Instead, in the past, when Iran has been 
under economic pressure, this has facilitated the coalescence 
of the regime and the consolidation of public support. Economic 
constraints have enhanced cooperation among Iran's factions. 
Tight purse strings have in fact forced some moderation of its 
economic policies, but not of its foreign policy, and I think 
that is particularly important to remember today as we move 
forward with new pressure.
    Obviously, sanctions have to be a component of our overall 
integrated diplomatic strategy toward Iran and one that has 
both a short-term and a long-term perspective. It is one of the 
few tools that remains at our disposal and, therefore, I set 
forth the following five principles that should be uppermost in 
our minds in assessing new sanctions:
    The objectives need to be clear, limited, and achievable, 
particularly sanctions that have potential for influencing 
important constituencies that have some say in Iran's nuclear 
policies, measures that target the economic interests of the 
Revolutionary Guard Corps and other critical elements of Iran's 
hardline power structure. This is a particular uncertainty, I 
think, with respect to IRPSA. I am not sure what the scenario 
that the sponsors of IRPSA have in mind--that the Iranian 
public, under great economic constraint, begins to go to the 
streets and voice its anger and frustration with its regime, 
and the regime, somehow capitulates or moderates its policy 
toward the international community? It is really a scenario 
that doesn't bear any resemblance to the likely behavior of the 
Iranian leadership.
    It is also suggested we need to be careful about our 
rhetoric when we talk about crippling sanctions that will break 
the back of the regime. Again, we need to be clear about the 
intended objective of our sanctions. We are not trying to bring 
down the regime; that is not within the capacity of the United 
States of America. What we are trying to do is reverse their 
position on the nuclear issue, and that means persuading them 
that their security is better served through another approach 
to the world.
    Second, we need to integrate sanctions within the continuum 
of U.S. diplomacy. I am glad that the Obama administration has 
dropped the sort of talk about carrots and sticks, but, still, 
the rhetoric of dual track seems to suggest that sanctions are 
an alternative to diplomacy. That is not, in fact, the case. 
Sanctions need to be a part of an integrated approach that 
actually uses sanctions to persuade Iran to come to the 
negotiating table, because that is simply the only way we are 
going to get the Iranians to understand that their security 
interests are better served by cooperation rather than 
confrontation.
    Third, we need to have that kind of broad international 
consensus and implementation that has been lacking for most of 
the past 30 years. Getting and keeping our allies on board with 
a sustained sanctions approach is important because so long as 
there are outliers--so long as there are hesitators like Russia 
and China--historically, that make it easier for others to sit 
on the fence and to avoid full implementation of the sanctions. 
In this respect, reset of the U.S.-Russian relationship has 
been a necessary condition for improving the prospects for 
sanctions, but it is not going to be sufficient. To generate 
sufficient international support for sustaining meaningful 
economic pressure, we are going to have to make a credible case 
to our allies that our measures can actually impact in a 
positive fashion the nuclear calculus.
    Fourth, we need to focus on those measures that have the 
best prospects for direct and immediate cost. This is, of 
course, the secret of the recent Treasury measures to restrict 
Iran's access to the financial system. They have actually hurt 
existing business, business that tends to be pursued by regime 
elites that have some influence over its behavior. Any sorts of 
sanctions that hit at prospective projects, at pipeline 
projects that are many years away from being implemented, are 
likely not to have much impact on Iran's behavior, largely 
because its regime retains a certain degree of denial about its 
economic prospects.
    Finally, we have to think very carefully about the 
prospects of any sanctions to influence Iran's emerging 
opposition movement. There have been varying calls within that 
opposition. Certainly, the political leadership of the 
opposition has suggested that sanctions would not help its 
position. There are others who have suggested, in fact, that 
new economic pressure might galvanize Iranians against the 
regime. I think both of these arguments have a certain degree 
of validity, but we have to recognize that measures that target 
the burgeoning economic role of the regime's repressive 
capacity that are specifically identified with its human rights 
abuses can serve a double purpose in pressing the regime, both 
in moderating its nuclear course, and in improving its 
treatment of its people at home. And here we should be 
leveraging the interest in Europe.
    But we have to be careful in assuming that somehow, 
Iranians, if the price of gasoline goes up, if they can't 
access home heating oil in the middle of a cold winter, are 
likely to vent their anger against the regime rather than at 
the United States. The regime is quite skilled at deflecting 
the impact of sanctions and clearly its rationing programs and 
its access to smuggling networks will permit the regime to 
implement its core constituencies from the impact of reduced 
supplies. The notions that Iranians would welcome American 
efforts to cutoff supplies of heating oil and gasoline to me 
sounds like the same kind of logic that suggested that Iraqis 
would greet us as liberators after we violently removed their 
regime.
    The reality is that the Iranian domestic climate is 
complicated and uncertain. There are no simple solutions. And, 
frankly, the cost of failure when it comes to applying 
sanctions is real and significant. If we move forward with a 
sanctions approach that does not work, the alternatives, 
specifically military options, are far worse in terms of 
advancing U.S. diplomatic interests in the region, and for that 
reason we need to use sanctions, but use them within a larger 
diplomatic framework.
    Thank you.
    [The prepared statement of Dr. Maloney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you, Doctor.
    Dr. Lopez.

                   STATEMENT OF GEORGE LOPEZ

    Dr. Lopez. Thank you, Mr. Chairman. I am honored and 
grateful to have the opportunity to share with the committee 
this morning some of the findings that I think have emerged 
from over a decade of research that my colleagues and I have 
done and submitted in much more detail and written testimony 
about the probability of success of sanctions under these 
conditions.
    I think the Congress and the committee face a kind of 
bitter irony. The sanctions you have before you will no doubt, 
if implemented, take a big economic bite out of Iran. The 
dilemma, of course, is they will not produce the political gain 
in concessions that are important for the interests of the 
United States. In fact, I would suggest that there are four or 
five basic principles we have learned from the history of 
implementation of sanctions that lead us to be quite cautious 
about the legislation that lies before us.
    First and foremost, generally, sanctions only have about a 
one-third track record. If you are a baseball player, this is a 
good batting average. If you are making economic policy or 
political policy at the foreign policy level, you would like a 
great deal higher percentage. The smart sanctions that we 
developed over the last decade have a strong success rate. We 
have been able to use them astutely under certain kinds of 
conditions, particularly Libya being one of the best examples. 
On the other hand, trade sanctions, of which a major component 
this package is, really have a worse ratio over time, and I see 
nothing in the sponsored legislation that increases the 
possible success rates as applied to Iran under these 
conditions.
    Second, if sanctions are to be imposed for the kind of 
multiple violations that we know Iran is engaged in--whether it 
is uranium enrichment, human rights issues, or support for 
terrorist groups--those have been most successful under 
conditions of multilateral imposition, particularly with regard 
to the U.N. framework. So Congressman Flake's observations 
before, I think, are important to note. We have a group of 
partners who have been very successfully committed to what we 
will do in terms of nuclear regulation over the last 3 years, 
in 2006, 2007, and 2008, with strong regulations and 
resolutions out of the Security Council. I am not necessarily 
sure we should jeopardize that by unilateral action that is 
likely to have less and less success.
    Third, pure and simple, we cannot punish the Iranians into 
a nuclear deal. No state, even the United States, has ever been 
able to do that before, and I don't see the conditions for 
success here. Only an astute mix of continued engagement, 
narrowly-conceived sanctions applied at the appropriate time, 
and versatile incentives will prompt the Iranians, hopefully, 
to change their nuclear posture. This is not the time for 
adding sanctions to the mix of that engagement diplomacy. If 
imposed now, as Suzanne has mentioned, Iran will react with 
particularly negative consequences for the prospects of future 
engagement with the IAEA or with the five critical partners 
with which they are engaged. The ultimate leverage we have, 
over time, is the continued coalition of support that we have 
built in the United States with the P-5 states and with states 
in Europe who believe that continued diplomatic engagement, at 
least for a while, is the way to proceed.
    Fourth, in nations with the kind of internal disarray that 
we see currently in Iran, we have seen a rally round-the-flag 
effect that creates very, very difficult conditions. In fact, 
at its worst, sanctions would play into the Ahmadinejad 
government's insecurity and passion for repression of its own 
political groups. Why we would cast to them this kind of 
``apres vous'' is strange to me. We need to build and sustain 
coalitions in Iran that will see the United States as its 
friend, and we must listen very adeptly to the kinds of 
reactions we have gotten from Iranians about the sanctions. 
Remember, we were able to sustain and have successful sanctions 
in South Africa over time because the opposition groups were 
saying that this was the appropriate strategy, and I think that 
is important for imposing sanctions.
    Now, with a sanctions expert being so negative on the 
possibility of imposing sanctions through this legislation, 
what do I offer you? I think there are some ways forward in 
which the United States can continue the engagement with the 
Iranians, but I state very clearly a number of particular 
postulates. The first is that the American people and the 
Iranian people can be brought together around the notion that 
no nation in the future should or could seek its security 
through nuclear weapons. We should state to the Iranians that 
they should see the relationship we are building with Russia 
and the treaty we are about to submit to the Senate sometime in 
the next year, which will lead to massive reductions in our 
nuclear arsenals. We are trying to lead the way through a 
particular kind of leadership by example, and we encourage 
states that are thinking about the nuclear threshold to pay 
attention to this.
    Aggressive diplomacy of the first order--in which we 
invite, embarrass, cajole, and incentivize the Iranians to 
think about the Geneva deal that they have left on the table as 
being at least a model for the way forward--is the way to 
astutely use our leadership, rather than future sanctions. It 
seems to me that we can go to the Security Council in the near 
term with a package of tightly-conceived, smart and targeted 
sanctions which look at the entities and individuals that have 
violated prior Security Council resolutions. Then we can call 
upon our P-5 partners and the rest of the Security Council to 
add another resolution to the strong mix of the three we have, 
and continue the multilateral framework that will penalize the 
Iranians for IAEA dismissal of regulations and an unwillingness 
to come forth transparently with the progress of their program.
    Are there incentives we can offer the Iranians? Yes. I 
think we should move forward with a picture of what life may be 
like in a post-sanctions environment for them. The first and 
most important might be a recharacterization of the existing 
sanctions from 2006, that would guarantee a right of the 
Iranians to enrich uranium up to a particular level and 
reaffirm their independence as a particularly strong state 
dependent on nuclear energy and medical technologies derived 
from nuclear technologies. This cannot be so in an environment 
that is not fully transparent and open to international 
inspection.
    We should hold open to them the prospect for membership in 
trade and other organizations, which current sanctions now 
prohibit. The best incentive one can offer a sanctioned country 
is the removal of those sanctions. But we haven't specified 
exactly how that will look in a step-by-step reciprocation of 
Iranian actions.
    I have contributed more in my testimony, but my time has 
come to an end. I do believe that the administration's approach 
to engagement has to be understood as 1 year in a 30-year 
framework with the Iranians, in which the turnaround in 
correspondence we seek from them may not have yet gone far 
enough down the road; but we have the strength, versatility, 
and energy as a diplomatic community to continue to exert that 
pressure in a positive way, and hold sanctions as keeping the 
powder dry for at least another 6 to 9 months in case the 
dilemma continues to manifest that we will need them.
    Thank you.
    [The prepared statement of Dr. Lopez follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you, Doctor.
    Ms. Wright, I understand that you are going to give us a 
PowerPoint presentation, and I understand that it is a good 
PowerPoint presentation. I had some reservations I was sharing 
with my staff that we went to Afghanistan, and how the military 
just loves to do PowerPoint presentations. I asked General 
McKiernan to not do that, that we wanted a dialog on that, and 
he answered back what if he just had one slide? So we relented 
and we thought that was a good compromise, only to find out 
that he had put everything that he possibly could for 50 slides 
onto 1 slide, so we had our show anyway. But please proceed.

                   STATEMENT OF ROBIN WRIGHT

    Ms. Wright. Thank you, Mr. Chairman. Mine is all pictures.
    Mr. Tierney. Then we will all be able to understand; that 
is good.
    Ms. Wright. That is right.
    The uprising launched after a disputed Presidential 
election in June has evolved into the most vibrant and 
imaginative civil disobedience campaign in the 57 nations of 
the Islamic world, and maybe the world generally. For all the 
physical force used against the Green Movement, it has, so far, 
remained nonviolent in response. The Green Movement is a very 
broad coalition that includes former presidents and clerics, as 
well as people who have never voted at all; and millions of 
students in one of the youngest populations in the world; and 
women in one of the most politically active female populations 
in the Islamic world, both young and old.
    But these diverse sectors of society also see the core 
issues through very different prisms. The new Green Movement 
has managed to mobilize Iranians for public protests every few 
weeks since the election 6 months ago. It exploits 
anniversaries, commemorations, and holidays, when the public is 
normally urged to demonstrate for government causes. They 
communicate in messages like this one, on the Internet, 
Facebook, and Twitter, or even in graffiti spraypainted on 
public walls, to turn government events into protests against 
the regime.
    The public demonstrations are when we hear their messages. 
At the November 4th commemoration of the U.S. embassy takeover, 
Iranians normally are urged to shout ``Death to America'' and 
``Death to Israel.'' This time many shouted ``Death to No 
One.'' More pointed, others shouted ``Obama, you are either 
with us or with them.'' This is a message now heard often.
    The demonstration last week on National Students Day was 
the largest since the summer. It erupted on several campuses, 
and additional protests are expected later this month to mark 
the religious holiday of Ashura, and again during the first 2 
months of next year on various anniversaries of the 
Revolution--the same period when the United States and its 
allies will be debating new international sanctions.
    In policy debates on Iran, there is a lot of talk about 
clocks: Iran's clock on its suspected nuclear program; the slow 
clock of diplomacy and U.N. sanctions; and Israel's impatient 
clock. To that should be added a new one: the opposition clock.
    What the opposition does is more important than anything 
this august body will ever consider. After 6 months, the Green 
Movement has proven that it has reached critical mass and has 
proven its durability. Since June, the Green Movement has 
shifted its agenda from disputes over the election of President 
Ahmadinejad to the role and powers of Iran's Supreme Leader and 
the very definition of an Islamic state. ``Death to the 
Dictator'' is now a common chant, with mounting anger over the 
militarization of the regime and the growing role of the 
Revolutionary Guards. This cartoon recently made the rounds, 
calling for the Supreme Leader to be booted from office.
    Yet, the Green Movement does not speak with one voice; it 
is united in opposition only. Its many different factions take 
different positions and have very different goals. Dozens of 
factions under the Green banner can be sorted into at least 
three general categories. Each represents a different side of a 
sometimes unlikely alliance.
    The first layer is the public campaign of civil 
disobedience, which extends well beyond the demonstrations. 
Iran's currency has become a medium for the message. Some stamp 
pictures and slogans on the Riyal, this one of Ahmadinejad, 
along with the slogan, ``People's Enemy.'' Most lash out 
angrily at the regime. Others reproduce pictures like this one 
with the famous picture of the female student, Neda Sultan, who 
was shot at a street protest in June. This picture is from the 
cell phone video that captured her dying.
    The graffiti is usually in green. Some slogans merely 
appeal to others who might get that note to write slogans on 
other bank notes. The bank notes even carry protests against 
the regime's foreign policy, this one against Iran's ties with 
Venezuela's Chavez, and here, against Russia. The regime 
reportedly tried to take the graffiti money out of circulation, 
but found there was too much to destroy.
    Another civil disobedience campaign calls on the opposition 
to boycott all goods, from food to cell phones, advertised on 
state-controlled television. Civil disobedience includes 
individual, uncoordinated acts. Mahmoud Vahidnia is a math 
student who was invited to a meeting between Iran's Supreme 
Leader and the academic elite. He went to the mic and, instead 
of asking a question, warned the Supreme Leader in a 20 minute 
tirade that he lived in a bubble and didn't understand what was 
happening in Iran. Iranian television, which was broadcasting 
the program lived, turned it off, but not before it was taped 
by the BBC and others and is now a very popular item on You 
Tube.
    The growing signs of dissent show in many ways: on public 
buses and on building walls, public spaces used to give notice 
about protests when the regime closes down cell phones or slows 
the Internet. Posters often appear overnight issuing new 
demands; many call for the release of political prisoners who 
are now part of show trials reminiscent of the Soviet show 
trials of the 1930's and the Chinese cultural revolution of the 
1960's. The slogans are often in Farsi and English because they 
want to get their message to the outside world.
    Even sports teams have become involved. Iran's national 
team wore green during a match abroad in June. Inside the 
country, some opposition have dared to attend games wearing 
green, which has reportedly led the government to broadcast the 
games in black and white.
    The Green Movement has generated some lively new art. This 
is the famous cell phone video of Neda Sultan, the young woman, 
again, shot in June. That gruesome photo has become a popular 
posture in the technique used for the Obama campaign. The same 
image has been blended into the artwork of the Iranian flag so 
her face takes the place of the religious symbol in the middle. 
The blood pattern has also been imposed on the Supreme Leader's 
face, an implicit message that he is responsible for her death.
    The reaction by the first category, or layer, is the most 
important sector when it comes to sanctions. Two key points: 
Many in the opposition support sanctions against the 
Revolutionary Guards or specific members of the regime, but 
adamantly oppose sanctions that will hurt the people at a time 
of serious economic problems and a time when many in the 
opposition already face losing their jobs, students face losing 
their places in universities and, as a result, their future. 
Second, Persian nationalism is among the strongest forces in 
the world. If you know a Texan, add 5,000 years and you have 
Persian nationalism.
    The Revolution was in trouble in the 1980's, when Saddam 
Hussein invaded, but millions of people who didn't like, trust, 
or support the Revolution rallied to the regime in the name of 
Persian nationalism.
    Public sentiment on sanctions is complicated by the nuclear 
issue, and, again Persian nationalism plays a role. Reliable 
polls indicate that Iranians, almost universally, support 
nuclear energy as the key to modern development. Shirin Ebadi, 
the Iranian Nobel laureate human rights lawyer, said of the 
program, ``Aside from being economically justified, it has 
become a cause of national pride for an old nation with a 
glorious history. No Iranian government, regardless of its 
ideology or democratic credentials, would dare to stop the 
program.''
    The second layer is the traditional political elite, which 
has struggled to develop a viable strategy. There are, as yet, 
no Mandelas, Havels, or Walesas in Iran. The opposition has 
been a body looking for a head since the beginning. The reform 
movement latched on to former President Khatami in 1997 because 
he talked about opening up the system. But they also abandoned 
him when he failed to do so. This time, the opposition rallied 
around Mousavi not because they liked him the best, but because 
they thought he was the only one who could stand up to the 
Supreme Leader, as he had in the 1980's when they were in 
different jobs. But Mousavi is an accidental leader. He 
occasionally issues statements and visits families of political 
detainees, but he has failed to create a plan of action or even 
to appear much in public.
    Mehdi Karroubi, the former speaker of parliament and 
another Presidential candidate in June, is more of a maverick. 
He first publicized claims of rape and torture of dissidents in 
jail and has tried often to join the protests. The traditional 
political elites in the opposition would also like to see the 
regime punished under sanctions, but, again, no sanctions that 
might further hurt the people and undermine the opposition.
    Mousavi has complicated the situation for both the regime 
and the outside world by rejecting the recent Tehran reactor 
deal. It is widely believed that this is merely internal 
politics, objecting to any initiative that might strengthen 
Ahmadinejad's claim to legitimacy. Iran's nuclear program has 
basically become a political football at home, with its own 
internal dynamics that could deeply complicate diplomacy.
    The third layer, very briefly, is the debate among the 
clerics, which is least visible, but quite intriguing and very 
important to understand. Ayatollah Montazeri is the most 
outspoken and credible opposition cleric, but there are many, 
many, many others. Montazeri was originally selected as 
Ayatollah Khomeini's heir, but was stripped of the title when 
he began to criticize the regime for its injustices. Since 
June, he has been scathing toward the government, at one point 
warning Iran's security forces not to take actions that they 
would someday have to justify before God.
    Montazeri issued a fatwa in October against nuclear weapons 
on grounds that they are against God's will and will inevitably 
kill civilians, as well as the military. He urged Muslims 
worldwide to take the lead in campaigning against nuclear arms.
    Among themselves, the clerics are now intensely debating 
what constitutes good governance, what an Islamic state should 
do and be, and even whether an Islamic state is good long-term 
for Islam. The clergy I have spoken with over the years--and I 
have been going to Iran almost every year since 1973--actually 
care about the nuclear energy issue, but, like the public, they 
feel the regime has pushed the nuclear issue too far, at great 
cost to the nation's standing, its future potential, and with 
millions of Iranians paying the price.
    As a result of the debate, Iran's Supreme Leader is 
increasingly standing alone among his own. Many clerics have 
long been wary of theocratic rule for fear that the human 
shortcomings of a modern Islamic state would taint Islam. As 
they hear vast numbers of protestors challenging Khamenei or 
see opposition messages on Iran's national currency, the debate 
among them has intensified.
    Thank you.
    [The prepared statement of Ms. Wright follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you. That was quite good. I appreciate 
that.
    Ambassador Dobbins.

             STATEMENT OF AMBASSADOR JAMES DOBBINS

    Mr. Dobbins. Well, that is going to be hard to top. I am 
afraid, after the multimedia excursion, we are back to boring 
Washington long-talk.
    I think all the witnesses, including myself, agree that 
further international sanctions will probably not compel a 
change in Iran's nuclear policies. Nevertheless, I think there 
are good reasons to pursue additional sanctions. There are, in 
fact, at least five distinct rationales for further sanctions. 
The obvious one is to influence Iranian policy. A second would 
be to promote positive change in the nature of the Iranian 
regime. A third objective is to degrade Iranian military and 
power projection capabilities. A fourth is to set a deterrent 
example for other aspirant proliferators. And, finally, 
whatever may be the hoped-for effect of sanctions, such 
measures provide an irresistible alternative to the other two 
options, which are even less desirable: the options of either 
doing nothing to respond to Iranian nuclear program, or going 
to war to prevent it.
    Historically, sanctions have seldom forced improved 
behavior on the part of targeted regimes. Sanctions did not 
compel the Soviet Union to withdraw from Afghanistan, Pakistan 
to halt its nuclear weapons program, Saddam to evacuate Kuwait, 
the Haitian military regime to step aside, Milosovic to halt 
ethnic cleansing in Bosnia and Kosovo, or the Taliban to expel 
Osama Bin Laden. Stiff sanctions were applied in all of these 
cases, but it took either a foreign military intervention or 
violent domestic resistance, or both, to bring about the 
desired changes.
    Now, while none of the above-named regimes altered their 
behavior in response to sanctions, all but one of them 
eventually fell. And sanctions may have contributed to their 
fall, but more as a gesture of solidarity with those seeking to 
change the regime, often by violent means, than as the prime 
cause. Universally supported sanctions in support of human 
rights in Iran might make a similar contribution, as they did 
in South Africa, in Haiti, in Serbia, in Iraq, and in 
Afghanistan. However, at the current moment, there is not much 
prospect of getting universally supported sanctions against 
Iran based on democratization as an objective.
    The objective for additional sanctions in Iran is rather 
under consideration, in order to try to force Iran to abandon 
its nuclear aspirations. Sanctions so directed are unlikely to 
encourage, and could even diminish, domestic resistance to the 
regime. Most Iranians, as has been noted, including the 
democratic supporters, support Iran's efforts to master the 
nuclear fuel cycle. Sanctions that are applied for this purpose 
could well increase support for the regime, rather than the 
reverse.
    Now, sanctions can definitely degrade the economic 
performance of the targeted state and thereby limit its 
military and power projection potential. That was certainly 
true in Saddam's Iraq. It was also true with respect to Haiti, 
Serbia, and Afghanistan. In each case, comprehensive and 
universally enforced sanctions made an eventual American 
military intervention even easier than it otherwise would be. 
So sanctions as a prelude to invasion and occupation have a lot 
to recommend them.
    Even unilateral American sanctions, for instance, against 
Cuba and Iran, have had some impact on the targeted country's 
economy and capacity to project power. Unfortunately, these 
unilaterally applied sanctions also have tended to bolster the 
targeted regimes and increase their domestic political support. 
Thus, paradoxically, unilateral American sanctions have both 
moderated and perpetuated the threat that such regimes present.
    The exemplary deterrent effect of sanctions is hard to 
measure, but is probably the best reason for going ahead with 
further sanctions against Iran. If the international community 
failed to respond to the Iranian program, it would be giving a 
green light to other countries, including a number of countries 
in the region, to go down the same path. So that is certainly a 
reason to continue to sanction Iran.
    Finally, we have the political imperative to not just stand 
there, but to do something. In situations where inaction is 
unacceptable and preemptive military attack unappealing, 
sanctions may provide the only alternative; and this is 
certainly one of the reasons that many outside the government 
and many of you will end up supporting sanctions.
    While sanctions may offer an irresistible political fix to 
a policy dilemma, they are not cost-free. Virtually every 
country that has ever been sanctioned eventually had a 
revolution, changed the regime, and became an American aid 
recipient; and American aid to countries like Iraq, 
Afghanistan, the Balkans, and Haiti, has in large measure been 
directed to undoing the effect of sanctions. So, in effect, the 
American taxpayer does end up paying a certain proportion, and 
a not negligible proportion, of the cost of sanctions as they 
are applied over time. One can only imagine how much money the 
United States is going to provide a democratic Cuba to reverse 
the effect of 50 years of embargo.
    To recapitulate, further sanctions against Iran are not 
likely to alter its nuclear policies. They will weaken the 
state economically and even militarily. Sanctions against Iran 
will serve, to some degree, at least, as a deterrent to other 
proliferators. Further sanctions are almost inevitable for the 
reasons I have suggested. The next question, therefore, is what 
kind of sanctions make sense.
    We have heard from Robin and from others about the nature 
of the internal dynamic. There is basically a competition 
between the Islamic tendency in the regime, personified by the 
Ayatollahs; the republican nature of the regime, personified by 
elected politicians; and the revolutionary nature of the 
regime, personified by the Revolutionary Guard. And for 30 
years these have been in some equilibrium. That equilibrium has 
been broken as a result of the fraudulent election and the 
popular reaction to it, and you are now moving increasingly 
toward a police state. But that is not necessarily a stable 
condition, and it could go in a number of different directions, 
including toward more democratization, toward a greater police 
state, or back toward some equilibrium.
    It seems likely that sanctions that targeted Iranian 
society as a whole would promote the least desirable of these 
results; that is to say, the consolidation of a police state 
under the Revolutionary Guard. Such would be particularly the 
case if the sanctions were to restrict the flow of consumer 
products, of which gasoline is probably the commodity most 
widely consumed. Such a ban would hit hardest those who own 
automobiles; that is to say, the urban middle class, precisely 
those whose pictures we have seen protesting against the regime 
and risking their lives to do so.
    So an internationally opposed ban on the sale of gasoline 
would probably penalize the population, particularly the most 
politically progressive element of the population, and 
strengthen the most regressive elements in the regime. A 
unilateral American ban would be meaningless, as the United 
States does not export any gasoline to Iran. A unilateral 
American ban with extraterritorial application would seem to 
offer the worst combination of effects: penalizing the 
population, strengthening the regime, embroiling the United 
States in endless disputes with its allies, and disrupting the 
current international solidarity in opposition to Iran's 
nuclear aspirations.
    So what to do? Strengthened sanctions are needed to reduce 
Iran's capacity to threaten its neighbors, to deter other 
aspiring nuclear powers, and to provide an alternative to even 
less productive courses of action. To achieve these results 
while minimizing negative consequences, such sanctions should 
be international. They should be targeted on the regime and on 
its nuclear potential. Such measures would include a 
comprehensive embargo on arms sales and on transfer of nuclear 
technology, financial sanctions focused on the military, on 
power projection capabilities, and on the internal security 
apparatus, and an international travel ban on those associated 
with all of these institutions. Sanctions would single out the 
leadership and impose even symbolic penalties on them, further 
delegitimizing that leadership in the eyes of the Iranian 
people. Sanctions designed to impoverish the country as a whole 
probably would have a reverse effect.
    Finally, any sanctions need to be rapidly reversible. 
Admittedly, there seems little immediate prospect that the 
Iranian regime will alter its behavior in the near term. 
Nevertheless, on two occasions over the last 8 years, the 
Islamic Republic has made far-reaching overtures of cooperation 
and accommodation with Washington. Those offers were made in 
the immediate aftermath of the U.S. intervention in Afghanistan 
and then, a year later, its invasion of Iraq. In the mood of 
national hubris which prevailed in this country back then, 
Washington chose to ignore both overtures. We cannot predict if 
and when another such opportunity will arise, but we should 
ensure that our President is in a position to respond rapidly, 
if and when it does. This argues for including in any 
legislation broad authority for the President to waive or 
terminate sanctions in response to changing conditions.
    Thank you.
    [The prepared statement of Mr. Dobbins follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you.
    Thanks to all of you. I think your testimony was very, very 
helpful, and enlightening, as well. Let me start the 
questioning aspect of this.
    I heard, Dr. Maloney, and I see in your written testimony, 
a statement saying the Supreme National Security Committee, 
which is one of the key institutions of the state, is 
responsible for nuclear negotiations and overall foreign policy 
coordination, but it appears to be functioning in crisis mode 
because of the bitter differences among the principals.
    So, Ambassador, you have had as much direct contact with 
Iranians as anyone here, so let me ask you: is it at all the 
case that their failure to respond to the diplomatic overtures, 
so far is because there are various conflicting groups that you 
all testified to are just frozen right now politically, inside, 
and they are unable to agree on a way forward to even react to 
international overtures?
    Mr. Dobbins. I think that is likely the case. The regime 
clearly is both weakened and distracted by the reaction to the 
election. I was actually quite surprised that they were able to 
engage as quickly as they did and initially to agree to the 
proposals that the international community had put to them, but 
that rapidly degenerated into a national debate in which the 
reformers, among others, began to criticize the regime for the 
possible accommodation with the international community; and I 
think that does mean that as long as this degree of 
uncertainty, turmoil, weakness, and distraction continue, it is 
going to be very difficult to constructively engage the regime.
    Mr. Tierney. I think [remarks off mic] blame them for 
exacerbating an already bad situation, or they feel that the 
world community is sort of ganging up on them and making their 
life worse, and they better get together and rally around the 
national flag. Do all of you come down on one side or the other 
of that argument, thinking that it is going to be a bad idea? I 
know, Ambassador, you just testified to that effect, and I 
think I heard that in the flavor of the others, that imposing 
refined petroleum sanctions and things of that nature would 
probably have the adverse effect of driving the general 
populous of Iran toward the current regime, and maybe 
buttressing them.
    Dr. Maloney, we will start with you.
    Dr. Maloney [remarks off mic]. the population responds. 
Certainly, Iranians can walk and chew gum at the same time. 
They can detest their regime and also resent the international 
community for making their life more difficult. And, frankly, 
that has always been the historical reaction to the American 
sanctions regime among Iranians when you walk the streets; they 
want to know why they are being punished for the misdeeds of 
their own government.
    I think the current conditions are chaotic and fluid enough 
that it is possible that Iranians may turn more toward the 
Green Movement in the aftermath of increased economic pressure, 
but it will not, in fact, persuade the regime to be more 
accommodating internationally. They will see themselves under 
greater threat and they will certainly be more difficult to 
deal with. Just as Ambassador Dobbins has suggested, the 
current situation is making it difficult for them to come to 
the table in a serious way and negotiate over a sustained 
period of time with a clear and coherent position. If the 
internal temperature becomes that much more inflamed, then I 
think it will be that much more difficult to have a serious set 
of nuclear negotiations in the near future; and, as Robin has 
suggested, there is a time urgency to the nuclear dilemma.
    Mr. Tierney. Dr. Lopez, you agree with that?
    Dr. Lopez. Yes, I do. I would go one step further: the 
imposition of sanctions permits the regime to shift attention 
to a new level of competition, if not conflict, with the United 
States, and takes the eyes off what ought to be the main focus, 
and that is what is wrong with the Geneva Accord. We seemed, in 
early October, to have a reasonable degree of consensus with 
the Iranians. We want to keep our focus on that as a template 
around which we negotiate, and there may be ways in which the 
threat of sanctions over the next 3 to 6 months gives us much 
more leverage with the Iranian leadership than the imposition, 
because it doesn't permit the leadership to focus on new 
actions by the United States taken under conditions of new 
hostility; it keeps our eye on the central focus of what is 
wrong with this existing nuclear deal, that on paper looked 
fairly good to all concerned in early October.
    Mr. Tierney. The statement I took out of Ambassador 
Dobbins' statement on this was the political imperative to not 
just stand there, but to do something. And I think you 
mentioned in your testimony that it seems to be driving a lot 
of Members, as well as anybody else; and it is a strong and 
powerful situation when you feel that somebody is not 
responding. Can we effectively target sanctions, say on the 
Revolutionary Guard or on some of the elites there, in such a 
way that it doesn't adversely affect the general population? 
Are there things left to be done that do not already exist in 
the current sanctions regime that we have?
    You have the same problem that I have with the mic; we have 
to turn it on. Ambassador, we have to turn the mic on.
    Mr. Dobbins. Sorry. I think that things like international 
travel bans, financial sanctions directed at individuals, named 
individuals, targeting companies that are owned by the 
Revolutionary Guard, and, frankly, just labeling those 
individuals and those organizations as pariahs. And this has to 
be international to be effective. International sanctions that 
do that will further delegitimize the regime, encourage 
domestic opposition, and make the regime feel uncomfortable; 
and they won't like it, and that in itself can provide a 
certain degree of satisfaction, even if it doesn't produce the 
desired results.
    Mr. Tierney. Thank you.
    Mr. Flake, you are recognized for 5 minutes.
    Mr. Flake. I thank the chairman and thank all the 
witnesses. This has been one of the most informative hearings I 
have been a part of for a long time and I thank the chairman 
for arranging it.
    Dr. Maloney, you mentioned that the Iranian regime is 
already preparing to deal with IRPSA, for example. What 
examples can you give? How are they preparing?
    Dr. Maloney. In the summer of 2007, they instituted a 
nationwide gasoline rationing program that, despite some early 
tremors of unrest, was largely accepted by the population. It 
has been abused, it has been exploited, but, in fact, there is 
now a very systemized rationing program, as well as a black 
market price for gasoline, which did not exist prior to that 
period. They have, in addition, put major investments into 
transferring most of the public vehicle fleet away from 
gasoline toward compressed natural gas, which, of course, they 
have vast quantities of. So they have sought additional sort of 
conservation measures; and they have, at least reportedly, been 
trying to stockpile gasoline, as well as activate some of the 
smuggling networks and craft deals with allies, including 
Venezuela, and possibly also China--there are conflicting 
reports on this--to expand their gasoline imports from those 
countries. Finally, they have also been investing in a major 
program of expanding and upgrading their own refinery capacity 
so that they will not be as vulnerable in the future to this.
    Mr. Flake. Thank you.
    Dr. Lopez, you have studied this a lot and we hear from the 
proponents of sanctions, particularly the petroleum sanctions, 
that other countries and companies that are dealing with Iran 
will simply have to make the choice: do they want to exclude 
themselves from the U.S. market, or the Iranian market. And we 
think they will choose to go with the United States. Is that 
necessarily the case, is it that simple?
    Dr. Lopez. No, I don't think it is that simple. I think 
what has to come along with that assertion is what then is 
going to be the cost and the logistics of implementing and 
enforcing that. Imagine a world in which U.S. tankers in the 
Persian Gulf are confronting Venezuelan ships, who see 
themselves in solidarity with the Iranian people, trying to 
deliver refined petroleum.
    Which crisis do you want to manage? I think we would want 
to manage a crisis with our Russian, Chinese, and other allies 
at the Security Council of a defiant Iranian regime that wants 
to throw out the IAEA, because we are on the stronger ground 
there, rather than shifting the terms of enforcement of an oil 
embargo, which has many, many routes for undercutting it. We 
have never had any success with secondary sanctions, that is, 
with those who have tried to participate in a sanctions regime 
by sometimes honoring it diplomatically, but undercutting it 
economically. That takes us, in a sense, on a side road that is 
only going to be a very, very long and difficult road for the 
United States to undo; it really becomes a sideshow that is not 
at all in our interest.
    Mr. Flake. All right. Thank you.
    Ms. Wright, you mentioned that some of the protestors were 
shouting, ``Mr. Obama, you are for us or against us.'' What do 
you mean by that? If you say that they are not in favor of what 
is on the table right now in terms of what the United States is 
proposing, do you mean sanctions that will target or impact the 
population in general? What do they want the President to do 
that he is not doing, is it simply rhetorically getting behind 
them, or what?
    Ms. Wright. I think there is a particular focus or desire 
for the United States to take a much stronger role or stronger 
position on human rights. They are not looking for the White 
House to come out and support the Green Movement; in fact, that 
would end up tainting them and giving the regime grounds on 
which to prosecute more of them for being spies for the United 
States or agents of the United States.
    But they do want to have a sense that the world, the United 
States, as the most powerful spokesman for the Free World, is 
willing to take a stand on behalf of them. The President's 
reference in his Nobel acceptance--the announcement was made 
about his Nobel Peace Prize and he referred just a little bit 
to Neda Sultan--not by name, but a situation resembling--he 
mentioned the situation when she died, and that resonated in 
Iran in enormous ways. It doesn't take very much.
    Mr. Flake. Thank you.
    In my remaining time, all of us up here have one of these, 
and we are going to be asked to go to the floor later today and 
use it: it is a voting card. With regard to IRPSA, if you had 
one of these and you were going to vote this afternoon, how 
would you vote? I realize arguments can be made this way, but 
we only have this card and we only have this vote today.
    If we could start with Dr. Maloney, how would you vote?
    Dr. Maloney. I would vote against it.
    Dr. Lopez. I would vote against these sanctions.
    Ms. Wright. I think there are a lot of problems with these 
sanctions and they could backfire.
    Mr. Dobbins. I would vote against them unless I got the 
kind of assurances that the chairman was talking about.
    Mr. Flake. Thank you.
    Mr. Tierney. The assurances, I don't know if you know what 
they were. They are either not to be implemented until the 
White House and the President, during the diplomatic 
initiatives, think it now essential to move to that point, or 
that he be given the flexibility to use them, but not be 
mandated to use them.
    Mr. Flake. Those assurances are not within the legislation 
right now.
    Mr. Tierney. Those are not in the legislation. The 
assurances that I am going to receive are that they will be in 
any final bill that we vote on after conference on that.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    First of all, I want to thank our witnesses. I think the 
testimony here has been very, very helpful in us making our 
decision. My only regret is that the other 430-something 
Members of the House are not here to hear your testimony as 
well, and I want to associate myself both with the remarks of 
our chairman and his conditions, as well as the concerns raised 
by the ranking member. You know, this could be a case where 
there is significant and courageous opposition right now in 
Iran, as Ms. Wright has so articulately presented. This could 
be a case of us snatching defeat from the jaws of victory. Just 
when there may be an opportunity here for an internal change 
within Iran, we may be doing something that defeats all of 
that.
    I have very limited experience in this, you are the bona 
fide experts, but I look at the situation in Cuba and I have 
had an opportunity to review that firsthand. The support, the 
rallying around the flag effect, as Dr. Lopez has described it, 
it is a real phenomena, and I think that is what has kept 
Castro in power in Cuba, because he stood up to America and he 
also had a ready excuse: the embargo, for anything that went 
wrong in Cuba. He blames tropical storms, he will blame that on 
the embargo, and it gives him great cover.
    I have been to Gaza a couple times and the embargo there in 
Gaza has caused great rallying around Hamas, regardless of 
their incompetence and inability to deliver for their people. 
And I have a fear that we are going to--this is the best thing 
that could possibly happen to Mahmoud Ahmadinejad. I think that 
he is welcoming this. This will cause the Iranian population to 
rally around him.
    So I agree with basically everything that has been said 
here this morning.
    The one question I had was around the mechanics. 
Ambassador, you might be the best person to answer this. To 
really limit, to implement the Iran Refined Petroleum Sanctions 
Act, it would seem to require a naval embargo of some sort, and 
a land embargo to prevent refined petroleum from coming back 
into Iran; and I guess I am asking is this a proxy vote for 
military action here? Because I understand it is going to need 
approval by the U.N. Security Council, but this is a first step 
in that direction. So how would this work out in practice?
    Mr. Dobbins. Well, if such a measure were to get Security 
Council approval, the Security Council could also authorize 
enforcement measures, as was the case with Iraq, for instance, 
when it was even more--Iraq was forbidden from exporting its 
oil, for instance, which was an even more effective means of 
sanctions.
    Mr. Lynch. You are referring to the Iraq Oil for Food 
Program?
    Mr. Dobbins. No. I am saying that, the Iraq Oil for Food 
Program came later as an effort to ameliorate the effect of the 
earlier sanction, which was simply to ban Iraq from exporting 
its oil. And there were enforcement provisions that prevented 
Iraq from exporting its oil: we were allowed to overfly the 
country, we were allowed to bomb Iraq periodically, we could 
stop ships. And this was all authorized by U.N. Security 
Council. So, theoretically, you could do that.
    First of all, you are not going to get a Security Council 
measure in support of an embargo on gasoline or refined oil 
products; that is not going to happen. Second, even if you did, 
you probably wouldn't be able to get authorization for those 
kinds of enforcement measures. So what we are talking about 
here is a unilateral U.S. measure with some extraterritorial 
application; that is, we will penalize foreign companies for 
engaging in this behavior by denying them access to our market.
    I don't think that either the Congress or the 
administration would intend to use military forces to enforce 
that, so I don't think there is a danger that this would 
precipitate the administration is authorizing military action 
to enforce this. I think the enforcement mechanisms, if they 
were approved, would be legal mechanisms designed to penalize 
firms from, say, Great Britain or France or Germany, who sell 
products to Iran, from selling products in the United States; 
and we would get into endless legal hassles and diplomatic 
disputes with those countries.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Mr. Duncan, you are recognized.
    Mr. Duncan. Well, thank you, Mr. Chairman, and thank you 
for calling a very interesting and informative hearing. First 
of all, I want to associate myself with the opening remarks of 
my ranking member, Mr. Flake; I thought he made a good summary 
of what I wish was our position. I also agree with Mr. Lynch 
that it is unfortunate that all the Members couldn't have heard 
the presentation that has been made here this morning, because 
I think all of us know that this afternoon we will in the 
House, at least, pass this sanctions legislation by an 
overwhelming margin, and I think that is unfortunate because I 
think the witnesses have made a pretty convincing case that 
these sanctions, or this legislation, is not a good thing to 
do, at least at this time.
    I think that we need a more neutral foreign policy toward 
the Middle East. I think we need to try very hard to be friends 
with Israel, but we also need to try harder and do more to be 
friends with other countries in the Middle East. I read, a year 
or so ago, an interesting book called All the Shah's Men, about 
Iran and some of our activities there. Unfortunately, in many 
other countries some of our activities to intervene in 
political or religious or ethnic disputes have created almost 
more enemies than friends for our country.
    Basically, that is all I really have to say. I don't know 
if you have any suggestions as to how, ever, when we pass this 
sanctions legislation, how we could do that and still--if there 
is something more we can do to show the Iranian people that it 
is not really aimed at them, but really toward their top 
leadership, and almost even more toward one man at the top. If 
you have any comments or anything you wish to add, feel free to 
comment.
    Dr. Lopez. Well, I would suggest, Mr. Duncan, that it is 
very, very important to get the extra rider in this bill out of 
conference that gives the White House some degree of 
flexibility on this: that the executive branch would judge when 
implementation, and under what conditions, would occur. And I 
think we ought to be much further down the road before that 
implementation occurs.
    Mr. Duncan. Well, I think that is a good suggestion.
    Ms. Wright.
    Ms. Wright. I was just going to add, very briefly, that 
there has always been a struggle on public relations on these 
initiatives and we never have been able, over 30 years, to 
explain ourselves and what our goals are to the Iranian people. 
Sometimes the White House or the State Department will come out 
with a statement simply saying ``our target is not the people 
of Iran,'' but that doesn't go very far. The Iranians, of 
course, with their media monopoly, can spin this in a way, not 
just this bill, but any action taken by the United States, as 
something designed to hurt all Iranians. Any effort to portray 
the alternative, that this is designed to, in the end, help 
them could make a difference.
    Mr. Duncan. All right.
    Thank you very much, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Duncan.
    Mr. Quigley, you are recognized for 5 minutes.
    Mr. Quigley. Thank you, Mr. Chairman. As the relatively new 
person on the block, this is quite an education for me as well. 
And I appreciate the remarks that my colleagues have made about 
the reservations that the panel seems to have about the 
effectiveness of sanctions, but I can't help read the obvious 
in the news recently, in the Times of London, about the Iranian 
nuclear weapon system being farther along than we had 
anticipated and, in recent news, much larger than we 
anticipated. So I hear that either sanctions don't work--and 
not just from this panel--or that they take a long time to 
work, or they must be specifically targeted with a lot of 
coalition assistance.
    They haven't worked yet, with the exceptions and the 
limitations that the Ambassador has talked about, and they 
probably won't work in this set of circumstances, but we don't 
have a lot of time. And, with the greatest respect, I would 
suggest that it is not going to do the Iranian people, who we 
want to be friends with, a whole lot of good if they achieve a 
nuclear weapon or two, and they certainly have enough material. 
And that makes them, more than anyone else, a target for 
reprisal and for destabilization of the entire region, and a 
threat not just to Israel, but to our other allies and our 
troops.
    So I guess I am saying Monty Hall isn't pointing to door 
No. 3; there is door No. 1 or door No. 2. If we are in a short 
timeframe, tell us the options then if you would vote against 
this.
    Dr. Maloney. I will take an opening crack at that. I don't 
think there are any good options, and that is something that 
Secretary Gates has been saying for many years now. It is 
something that most of us who work on Iran deal with every day. 
There are no silver bullets to a regime that has been in power 
for 30 years, that has survived endless crises, and will 
probably even see this one through, at least for the short to 
medium term.
    I would raise just one point about the timeframe. The 
Iranian nuclear program is an urgent dilemma, but we are not 
yet at a stage where Iran has either a nuclear weapon or the 
capacity to deliver one--we are several years away from that 
period. And we need to give diplomacy some time to work. That 
means diplomacy using sanctions, using the combined weight of 
the international community working in coordinated fashion, for 
perhaps the very first time since the Iranian Revolution, to 
deal with this government. It means giving the Iranian 
democratic opposition some time to actually bring itself 
together, find a strategy, develop a leadership that can truly 
confront the regime.
    But I am quite confident that, in fact, we can, over a 
period of several years, deal in a much more coordinated, much 
more effective fashion with Iran. Yet that needs to involve 
both diplomacy and economic pressure and, in particular, very 
strong coordination with the international community.
    Mr. Quigley. Well, wouldn't you acknowledge, Doctor, that 
the timeframe that we thought we were working with has 
compressed already? You are talking about taking a pretty big 
risk if we are assuming it is not going to contract again.
    Dr. Maloney. I am making no assumptions whatsoever, because 
I think, obviously, we don't know everything that there is to 
know about the Iranian nuclear program--and we were surprised 
in 2002 about the extent. We have been surprised by the 
regime's willingness and determination to push forward despite 
the threat of international pressure and sanctions.
    But I think we also recognize that there have been 
technical problems with the program; that, in fact, despite the 
massive investment that the regime has made, they have not yet 
achieved a weapons capability. There is fuel that has been 
amassed, but there are ways that the international community 
can deal with that, and one of them, the very good, I think, 
proposal by the administration to export the LEU is one that 
can be continued to be pursued.
    There are at least some signs that there are some within 
the Iranian regime who would support a revised review of that 
deal, and I think that is one of the aims that sanctions ought 
to be directed toward, rather than simply punishing the country 
as a whole, rather than simply trying to reap the highest 
economic price against Iran, because we know from past history 
that won't succeed.
    Dr. Lopez. May I, Mr. Chairman, respond to this in that I 
think it really focuses us on what is a medium term goal; and 
the highest order of a medium term goal, it seems to me, is to 
create an environment in which it becomes far too costly for 
the Iranians to continue to reject IAEA guidelines and IAEA 
inspections. Let's remember that the Natanz Plant is still 
under IAEA guidelines. The primary generator of enriched 
uranium is still under international inspection and control.
    One of the great advantages of the Iraqi sanctions over 
time was that we had a nice linkage between the pressure of 
sanctions and the maintenance of inspections. If you wanted the 
sanctions lifted, you had to be continually forthcoming with 
inspections. And I think to the extent to which there is 
pressure on this government to worry about a longer-term time 
clock, and sanctions is the answer, well you then targeted 
limited sanctions against key component entities that supply 
high level components to the regime or elements of the 
Revolutionary Guard--identifiable people who are in charge of 
the nuclear program, to the extent that they can be targeted, 
sends the appropriate message of urgency but also doesn't risk 
the possibility of the Iranians expelling the IAEA or 
withdrawing from the NPT.
    So we want to keep this tense synergy between those, and 
there is a way in which the greatest dilemma that Congress 
faces is that all the available tools seem to be a toy store 
that we can mobilize. In fact, you have to be very astute and 
selective about how to do that with a medium-term goal being 
continued dialog and inspection by the IAEA.
    It may be that the end point--2011, 2012, or 2013--puts us 
in the same position as the one we were in with Libya. I would 
make the case that sanctions were very successful in turning 
around Libyan commitment to terrorism and to its weapons of 
mass destruction program. We had to go past the eleventh hour 
and, fortunately, we didn't sacrifice constructive engagement--
even when they went beyond the threshold that we hoped they 
would not. They woke up 1 day and realized that a nuclearized 
state is not all it is cracked up to be.
    We may have to go through that entire threshold with the 
Iranians. I hope we do not, but I think only a strategy of 
constructive engagement and a step-by-step approach to medium 
goals will get us to where we want to be.
    Mr. Tierney. Sure.
    Ms. Wright. If you are looking for impact, the kinds of 
sanctions that have had the biggest impact on the regime are 
the banking sanctions imposed by the Treasury Department. This 
is something that has mobilized the international community 
because of laws passed after 9/11 that make every bank 
responsible for knowing their origin of the flow of money that 
they have in their banks and, as a result, the five largest 
banks in Iran have been crippled from doing international 
business. Expanding that avenue, that type of sanctions, even 
though it does have impact on the people, makes the regime sit 
up and notice, and it ends up paying a real price because it 
can find alternatives, but at a much higher price.
    Mr. Quigley. Thank you, Mr. Chairman. I just want to know, 
as you say, though, that sanctions worked and they did, as you 
suggest, hurt the Iranian people at the same time. I mean, it 
is very complicated and difficult, but you challenge us not to 
use the only tool we have right now, to a certain extent, if 
you start limiting what sanctions we can use.
    Ms. Wright. You asked what works, and this is something 
that, very quickly, has had an impact. I lived in Africa for 7 
years: the last 7 years of sanctions against Rhodesia and 
sanctions during Apartheid, and it takes a very long time for 
sanctions to work. The impact of banking sanctions has been 
almost unprecedented of any case around the world in terms of 
how quickly it has made a regime sit up and notice; how big a 
price, literally and politically, it has exacted.
    Mr. Tierney. Thank you.
    Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman, and I want to thank 
our witnesses, as well, for being here and their testimony.
    In today's Post, Danielle Pletka, and I believe I am 
pronouncing that name right, has a piece in there--a pretty 
compelling piece--and the writer talks about this. She believes 
the administration has kind of resigned itself to a nuclear-
armed Iran and is moving in the direction of a ``containment 
policy.'' I would like to get your reactions to the premise of 
the piece. And then, also, kind of moving into what Ms. Wright 
pointed out in her opening statements, if in fact that is the 
case, that this containment policy is what is being pursued, 
the implications that has for our country to support the reform 
or democracy movement that is in Iran.
    So we can just go down the list and you can fire away.
    Dr. Maloney. I would disagree that the administration, at 
this stage, has settled on containment. I think that really 
belies everything that has been done, particularly the very 
creative and positive proposals that were put forward and 
originally agreed to by the Iranians to export the LEU and 
support the Tehran research reactor deal.
    So I just don't see that evidence. I think that we need to 
be planning for that eventuality, simply because we can't 
predict the way these sorts of things play out, as we learned 
from both India and Pakistan. There may be drivers that force 
this regime to move forward more quickly that, in fact, produce 
a nuclear-armed Iran more quickly than we anticipate, and we 
should be prepared for containment if and when that comes. That 
needs to be done quietly and discreetly, but I would hope that 
planning is already underway.
    I do not see that as in any way contrasting or undercutting 
the very strenuous diplomacy that we have had, resetting the 
relationship with Russia, putting forward serious proposals 
toward the Iranians, and actually, I think, very quietly 
mobilizing at least some international support for the kinds of 
multilateral sanctions that would be effective--because I think 
no one on this panel has said that sanctions should never be 
used, but simply that they need to be used only where and how 
they are most effective.
    In terms of how that coordinates with our support for the 
Iranian opposition, I would say, quite frankly, that the 
Iranian opposition is a force that we neither created nor 
anticipated, and our support--while important because we are a 
moral leader, because we have a certain responsibility given 
our history, given our ideals--to voice those sorts of ideas, 
our support is not going to be what changes the future for the 
Iranian opposition. Iran is a proud country that resents the 
interference of foreigners very deeply. Fifty years later, they 
still deeply resent, as one of the other representatives 
suggested, the involvement with the Mossadeq affair in 1953. I 
don't believe, at this stage, that anything other than moral 
support for the opposition would be useful or welcome from that 
side, and I do believe that opposition, in fact, will succeed 
over time, simply because it represents the view of the large 
swath of the Iranian people.
    Mr. Jordan. Mr. Lopez.
    Dr. Lopez. Thank you. It is a very, very important 
question. I detect, through dealing with people on the National 
Security Council and elsewhere, no resignation to the 
containment strategy. In fact, I believe that the good example 
here is the way we are dealing with the North Korea 
nuclearization problem; that is, we are going to find every 
diplomatic and, in the North Korean case, sanctions-based way 
to roll this back. So I detect a strategy that--on the one 
hand, counter to where I think we have been for the last 
decade--rejects the notion that there is an immediacy to the 
ability to apply increased pressure and then somehow arm twist 
the Iranians into changing their behavior. The new realism I 
detect in town now is that we know we are dealing with a very 
determined regime which has domestic, cultural, and other 
reasons to move only straight ahead with nuclear development.
    Now, how do we show them that is a choice that has 
consequences without immediately imposing penalties? How do we 
hold before them a vision of be careful what you wish for, when 
you get it, as you deal in your neighborhood and as you deal in 
the rest of the global community? How do we find a way for them 
to match their own rhetoric with a responsible participation in 
the global community's concerns about nuclearization? I think 
the contingencies will be there for dealing with this, but I 
like the notion that this current approach sees a very, very 
long road ahead, and if the measures we don't take result in 
the desired turning back away from the program and an export of 
uranium, if they go nuclear, we have models for which to deal 
with that, as we have executed in Libya and in North Korea; 
that is, in a sense we are playing, if you will excuse the 
sports analogy, with two game plans: one for regulation time, 
and one for if we have to go to overtime.
    Ms. Wright. I don't have much to add except that 
containment is the end of the process, and we are still at the 
beginning.
    Mr. Dobbins. Well, I think, first of all, you have to 
understand it is perfectly logical for Iran to be pursuing 
nuclear weapons; they are surrounded by other nuclear powers 
and they are at a level of sophistication and capability which 
allows them to achieve a nuclear capability. If Barack Obama or 
George W. Bush were elected president of Iran, they would be 
pursuing a nuclear capability; any leader in that geopolitical 
context would be. The question is can you, first of all, move 
toward a regime that is not threatening its neighbors 
ideologically, so that people are more relaxed about it and, 
second, create incentives and disincentives that persuade them 
that a nuclear capability is not in their interest.
    We have already seen North Korea cross a nuclear threshold, 
and the current policies are to roll it back; and there are 
fairly massive sanctions that are in place, and also some 
fairly substantial inducements that are being offered to try to 
roll that back. So Iran crossing the nuclear threshold is not 
necessarily the end of the world and it doesn't mean, even if 
it happens, that you are going to live with it indefinitely or 
try to live with it indefinitely.
    One of the reasons, as I have said, for substantial and 
mounting sanctions against Iran is to persuade other countries 
that they don't want to do the same thing. So keeping Iran in 
its pariah status, even if it achieved nuclear weapons or 
nuclear capability, would be sound policy, in my judgment. So I 
don't think we should set an absolute deadline here.
    That said, we are not going to physically prevent Iran from 
getting nuclear weapons by anything short of invasion and 
occupation. Bombing might delay it, but not indefinitely. 
Therefore, we are going to have to continue to pursue a track 
which involves mounting sanctions, continued engagement, and 
international solidarity in an effort to arrest, slow, or 
eventually, if necessary, roll back this program.
    Mr. Tierney. Thank you.
    Mr. Luetkemeyer.
    Mr. Leutkemeyer. Thank you, Mr. Chairman, and I thank the 
witnesses for their testimony; it has been very compelling.
    I happened to have the opportunity to go to Israel back in 
August, and our group, both Democrats and Republicans, met with 
the leadership, both there in Israel, as well as in Palestine, 
and they were adamant in their analysis of the situation that 
Iran would have the nuclear capability by the end of the year. 
If that is the case, I think it is being very naive, from the 
testimony we have heard this morning, that we have plenty of 
time with which to deal with this. I think that a sense of 
urgency is necessary in order to be able to confront this, have 
a plan ready to confront it. I haven't heard that plan yet this 
morning. I have heard some ideas, but I haven't heard that 
plan. And if we are going to be ready for this, we need to have 
a sense of urgency belying an ability to contain this or deal 
with it, as the Ambassador just said.
    One of the concerns I have is that sanctions are only part 
of one of the layers of ways to deal with this, and diplomacy 
is one of the ways. But the folks in the Middle East don't seem 
to be able to understand that with diplomacy comes commitment; 
and they don't seem to be willing to live up to commitments. We 
can get commitments from them, but they are just ignored; it is 
just a statement that they can throw away. There doesn't seem 
to be any willingness to complete their commitment.
    So, in that light, knowing we have a sense of urgency, 
knowing we have a difficult group to deal with, knowing that 
they probably, if they don't have it already, will have nuclear 
capabilities very shortly, where do we need to go with our 
sanctions and our diplomatic efforts? Because if we get another 
North Korea, which ignores diplomacy, which ignores the 
international community, how do we deal with those folks?
    Ambassador, would you like to start?
    Mr. Dobbins. Well, first of all, I think that deadlines and 
a sense of urgency may tend to work against us, rather than for 
us. They don't feel a sense of urgency. If we feel a sense of 
urgency, then we are the ones under the gun and we are the ones 
who are constantly pressured to come up with new ideas, new 
proposals, new diplomatic offers.
    Mr. Luetkemeyer. Yes, but don't you feel we need to be 
ahead of the curve on this? Don't you feel we need to be 
proactive, rather than reactive?
    Mr. Dobbins. I am not arguing that we shouldn't be. I am 
arguing that we need a sustainable policy, a policy that will 
continue to penalize Iran, will continue to make it, over the 
longer term, unattractive for Iran to either gain or retain a 
nuclear capability. We need to maintain international consensus 
which isolates Iran and penalizes them in that regard. And to 
the extent we become fixated on a particular deadline, we are 
the ones who then become under pressure; we are the ones who 
then find our position weakened by that kind of time pressure.
    So I understand the apparent urgency. Now, I am not sure 
you said the Israelis thought they would have a nuclear weapon 
by the end of the year. I don't know what year that refers to.
    Mr. Luetkemeyer. This year.
    Mr. Dobbins. Well, they are certainly not going to have one 
by the end of this year, so I think we can dismiss that 
possibility. I don't think they are likely to have a nuclear 
weapon by the end of next year, either.
    Mr. Luetkemeyer. Well, with all due respect, Mr. 
Ambassador, here is an article from the Times online, December 
14th, Secret Document Exposes Iran's Nuclear Trigger. They have 
their final component of the nuclear bomb; they are working on 
it as we speak.
    Mr. Dobbins. If Iran has nuclear materials for a weapon, 
they have a facility we don't know about and can't bomb, 
because we don't know it exists and we don't know where it is. 
So if Iran could develop a nuclear weapon at this point, they 
would do it in a way that we would have absolutely no way of 
stopping, unless we invade and occupy the entire country.
    The uranium they do have, which we know about, is not 
capable of creating a bomb, and wouldn't be capable of creating 
a bomb for several years because it requires extensive further 
enrichment, which the Iranians do not, at the present, have the 
capability to do, but which they could do over an extended 
period of time.
    So it is possible they have nuclear material we don't know 
about, but, if so, then our options are pretty limited.
    Mr. Luetkemeyer. Well, not to belabor the point, but Dr. 
Maloney made the point in her testimony that gave at least two 
examples where we had underestimated what was going on in Iran. 
To me, if we have already underestimated twice, it would seem 
logical that it is very possible we underestimated them again; 
and when you are dealing with a nuclear bomb and a regime such 
as that, to underestimate those folks is very, very dangerous.
    Anybody else like to comment on the discussion?
    Dr. Maloney. You also posed in your question the idea of 
where do we go next, and I think that needs to be the focus of 
the deliberation at this stage, and particularly with respect 
to IRPSA. Where we go next is not more unilateral measures that 
have limited or counterproductive impact within Iran. Where we 
go next is to the U.N. Security Council; test how successful we 
have been in changing the dynamic with the Russians, test how 
serious the Chinese are, as they have suggested, at least, in 
some rhetoric, about applying new pressure to Iran, and test 
the Europeans and see if they are finally willing, for perhaps 
the first time since the Revolution, to put their money where 
their mouth is when it comes to Iran.
    I think that is the route that we go. And we will not 
succeed fully, but I think that we can have some real impact in 
crafting the kind of measures that, as Robin suggested, have 
already begun to make important elites within Iran, people who 
really do have some influence over the future of its policies 
on core security issues, stand up and take notice; and that is 
the sort of thing that can pay off, but it will take time.
    Mr. Luetkemeyer. I appreciate your responses and I would 
love to ask more questions, especially with regards to how in 
the world we can get the rest of the world to go along with us 
when half the world sides with Iran right now, but I realize my 
time is up.
    I appreciate the chairman's indulgence. Thank you.
    Mr. Tierney. Ms. Wright.
    Ms. Wright. I just have one brief thought. Implicit in your 
statement is some knowledge that we have about where Iran is, 
and the bottom line is you think we knew too little about what 
was going on in Iraq, try Iran--we know even less. And that is 
a sobering reality when it comes to figuring things out down 
the road.
    But I will also say that if you thought Iraq was a 
complicated war, try Iran. The military option is not just an 
issue of using strategic bombing of suspected targets, which 
would clearly backfire and clearly galvanize the population 
around the regime, however much they hate it, but, because of 
the nature of conflict in our own deployment of troops in both 
neighboring Iraq and Afghanistan, force the United States to 
engage in something that was far broader and would look like an 
open-ended war with Iran.
    So I think that when we talk about these options, yes, 
sanctions are frustrating. But the military option is one that 
is so costly, and we make assumptions about being able to go in 
and having some impact, that could be, in many ways, the worst 
thing to do, because it would also encourage people to think 
they need the bomb to protect themselves.
    Mr. Tierney. Thank you.
    Mr. Luetkemeyer, I can offer two things. You weren't yet a 
member of this committee last session when we had a hearing on 
the war gaming of just what would be entailed in having a 
military response and what would be the ramifications, so the 
committee staff would be more than willing to make those 
materials available to you if you think they are useful at all, 
with the testimony of the various witnesses on that. I think 
there were graphs and charts and all of that.
    The other thing you might find useful, although I suspect 
we are a little late for the vote today, you might find it 
useful if we can arrange for the Intelligence Committee to give 
you a briefing on what it is that we do know. I think everybody 
acknowledges we don't know everything on that, but it is just 
as dangerous to overestimate their capacity as it is to 
underestimate it; and if you want to raise that directly, it is 
fine. If we can be helpful in that, we will certainly try to do 
that with you.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    Mr. Tierney. You are welcome.
    Mr. Flake.
    Mr. Flake. I ran out of time before I could ask Ambassador 
Dobbins first, and maybe the others if they want to comment, 
with regard to the mentioned advisability of the sanctions 
route, the economic sanctions route, of international 
cooperation and getting our allies on board. Does it make it 
more difficult, or do we help by leading, imposing our own 
unilateral sanctions?
    And there may be a mix of both, I understand, but let's 
take today's action in the House with IRPSA. Does this 
complicate the likelihood of getting our international allies 
on board on other, perhaps more effective sanctions, or some 
variant of these sanctions? How does that impact us moving 
ahead, the fact that we are going to impose these in the House? 
The Senate may not go there, it may look different in 
conference, I understand, but I just want you to talk to the 
advisability of leading on this. Is it something that our 
international partners are looking for our guidance on or is it 
more useful, and I tend to think, and I want to see if you 
agree, to move in concert with them?
    Ambassador Dobbins.
    Mr. Dobbins. I think that the element of the bill that you 
face, as I understand it, that would disrupt international 
solidarity and make agreement more difficult, is the 
extraterritorial elements, the effort to use U.S. law to impose 
sanctions on foreign companies for doing something that is 
perfectly legal in their own country and perfectly legal 
internationally. We have done that in the past and we have 
ended up backing away from it because of the virulently 
negative reaction of our closest allies to being manipulated in 
that fashion.
    Mr. Flake. If I could interrupt for a minute. Within IRPSA, 
that is precisely what we are doing, is it not?
    Mr. Dobbins. Right. Exactly.
    Mr. Flake. Dr. Lopez, do you have a comment on that?
    Dr. Lopez. I am in agreement with you on this and I think I 
would just add two layers to this. One is in terms of the 
multilateral versus unilateral dynamic, it needs to be more 
widely understood in the Congress how the Russians and the 
Chinese share very much our view that a nuclear Iran is in no 
one's interest.
    And if we believe we have to march down the road of leading 
with economic coercion so that we persuade the Russians and the 
Chinese, we are already on the same plain on this; and I think 
that is what pushes us to think about more astute arrangements 
than are built into this legislation.
    Second, I believe we have a new era of good feeling around 
the Security Council table that has been hard earned over the 
last 2 years, and that concerns, particularly in this town, 
that the Security Council is either inept or the environment is 
not right there for us. In fact, within this week I think the 
United States has shown remarkable leadership in the Security 
Council, in the reformulation of the 1267 guidelines with 
Russian and Chinese partners.
    I think we are at a unique moment in which the multilateral 
may need to lead the domestic, and we would be much better off 
in a technical sense saying the United States has in its 
holster, if you will, a set of punishing sanctions, but because 
our highest order of priority is changing Iranian behavior in 
concert with its region and in concert with the globe, we are 
keeping that powder dry. But it is very clear what we can do 
technically and economically, but at this moment we choose not 
to because we believe this is a global concern of which we are 
pleased to play a part.
    Mr. Flake. Dr. Maloney.
    Dr. Maloney. Let me just add one final point. Under IRPSA, 
as I understand it, currently formulated without flexibility or 
waiver authority, we would have to sanction Chinese companies. 
And if you think that is going to make it easy to bring the 
Chinese on board with the kind of sanctions at the Security 
Council that would actually have an impact in Iran, I think 
there is some obvious conflict there. The Chinese have an 
enormous interest in investment in Iran, and if we can in any 
way encourage them or coerce them to use that leverage with 
Iran, that would be far more valuable. They are unlikely to do 
that if we are involved in the business of sanctioning their 
energy firms.
    Mr. Flake. Thank you very much.
    Mr. Tierney. Mr. Foster, you are recognized for 5 minutes.
    Mr. Foster. Well, thank you. And my apologies for not being 
present for all of your testimony here. But I am specifically 
interested in the possibilities for further micro-targeting of 
financial sanctions toward different segments of society that 
might actually provide us with some leverage to try to 
encourage the developments that we want to happen in government 
there. Obvious targets would be individual institutions and 
banks, or maybe sections of the ruling class that might realize 
that their hold on power is a little bit shaky and they may be 
shoveling their assets offshore, or elements that we think 
might be friendly toward developments we want to encourage and 
making their financial lives easier.
    I was wondering if there is anything that we are missing, 
anything Congress can do to encourage or enable that sort of 
better targeting of financial sanctions.
    Dr. Lopez. I am willing to respond. I think this particular 
leadership in Treasury has examined this in detail and I have 
great confidence in Mr. Levey for knowing what that is; and 
there have been a number of discussions, as you know, about 
that. I think the focus of this should be on those entities 
whose activities are most auspiciously in violation of the U.N. 
Security Council resolutions passed in 2007 and 2008, which 
restricted higher levels technologies and the movement of 
moneys to support the nuclear program.
    I think with the revelations that the Congressman has noted 
earlier--of the possibility of trigger devices, the movement of 
scientists, etc.--I think we have possibilities of looking into 
new areas where this kind of micro-targeting would be very 
effective. It has a combination of sending a very, very strong 
message that our intelligence is state-of-the-art; that there 
are ways in which we are trying to focus on the nature of the 
problem, which is nuclear development, and not the whole 
economy; and it also has the ability to be voided very quickly 
if we need to reward compliant behavior.
    Dr. Maloney. Can I just add to that? I think, in addition 
to micro-targeting and looking for the most important 
constituencies within the regime to influence, we also need to 
think about the way that we are implementing sanctions; and one 
of the, I think, existing holes--and it is well known--is 
Iranian economic interests in Dubai. To the extent that we can 
get the UAE, the Dubai Emirate in particular--to step up its 
scrutiny and make its financial transactions with the Iranians 
more difficult, that will have, I think, some significant 
impact on the regime elites who currently support the nuclear 
strategy.
    Mr. Foster. Is there any detailed knowledge about segments 
of Iranian society moving their assets offshore, into places 
where we might or might not be able to see? There are a lot of 
things happening in the financial services bill that is 
intended to give us leverage to pry open places like 
Switzerland, and I was just wondering if that is a source of 
frustration in understanding what is really going on there and 
where we could apply leverage.
    Ms. Wright. There has been an enormous drain of capital in 
Iran by both people in the regime and others. As Suzanne 
mentioned, Dubai's economy is now fueled significantly by the 
inflow of Iranian businesses that have basically set up shop 
there to get around sanctions. So they bring their goods, or 
whatever their office is involved in, to Dubai, running out of 
Dubai, and then they ship things across the Gulf or use that as 
their backup office. But Dubai, at the moment, is also looking 
for any source of income it can get, so how much pressure we 
can actually put on Dubai is very tricky.
    Mr. Foster. OK. Well, thank you, and my apologies again for 
only covering part of it.
    I yield back.
    Mr. Tierney. Thank you.
    Mr. Luetkemeyer, do you have any further questions?
    Mr. Luetkemeyer. Yes, I just have one, Mr. Chairman. Thank 
you.
    We talked about the opposition many times. How strong is 
the opposition? How well organized is it? Where do you feel 
that it is going to grow to?
    Ms. Wright. There has been a reform movement that has been 
vibrant since the early 1990's in Iran; it took root officially 
with the election of President Khatami in 1997, but it never 
had critical mass. Today it does and it crosses all sectors of 
society. You have people who were among the original 
revolutionaries, as well as people who have never been involved 
in politics and hate the system. It has all aspects of societal 
life. I had some of the slides, I think before you arrived, of 
women old and young; you have taxi drivers, as well as 
professionals. This is something where everyone has been 
affected.
    And I know we talk a lot about the Revolutionary Guards and 
kind of lump them together, but one of the things you need to 
remember is that even within the military, including the 
Revolutionary Guards, there is dissent. In 1997, the Iranian 
polls found that 84 percent of the Revolutionary Guards voted 
for President Khatami, the reform president. Every young man 
has to do service in the military and many opt to do the 
Revolutionary Guards because their training is better, it helps 
get them entry to university, and, most of all, because they 
get off at 2:30 p.m., and then the young men can go off and get 
a second job, as many young men have to do to support their 
families in this bad economy.
    So we need to be very careful in looking at lumping any 
sector of society in one basket. There are even confirmable 
reports from some of the housing compounds from the 
Revolutionary Guards that there were people shouting from the 
rooftops at night, you know, ``Allahu Akbar'' and ``down with 
the system,'' so forth.
    Mr. Luetkemeyer. What percentage of the people do you 
believe either belong to or strongly support these efforts?
    Ms. Wright. I would be dishonest if I told you I had an 
exact number, but I think that there are vast numbers who 
either support the opposition, or are disillusioned with the 
regime because of their treatment of Iranian society over the 
last 6 months. Do I think it is the majority? I can't honestly 
tell you, but I think that to brave the kind of repercussions, 
whether it is going to jail, facing torture, potential rape, 
and that people still get out in the streets, still engage in 
civil disobedience in very imaginative ways is stunning, and 
there is nothing like it anyplace else in the world today.
    Mr. Luetkemeyer. OK, you made an excellent point with 
regards to how some sanctions would hurt the people in this 
group, and they are very politically oriented toward their own 
world and very defensive and very protective of it. What do you 
think, if we could have them write our policy, what would they 
like to see us do to hurt the regime, and yet be able not to 
hurt their people? What do you think the suggestions would be 
from them?
    Ms. Wright. Well, as I tried to suggest earlier, I think 
that the one common denominator among all three layers of 
categories of activism is a desire to see the regime pay the 
price: the specific individuals, the Revolutionary Guard 
leadership, the Basij, the head of the young religious 
vigilantes. But they also know that there are lots of little 
loopholes, so that in the case of an individual who may be 
sanctioned, his kid may be in Europe in school. The head of 
household may be affected by the limitations, but it doesn't 
affect their broader life and the ability of them to generate 
players in society down the road.
    So they are interested in seeing us support human rights 
issues, give greater attention, acknowledge what is happening 
without saying, you know, we are going to allocate $400 million 
to support the Iranian opposition. That is not what they are 
looking for. In fact, they don't want any American money for 
fear that it will taint them.
    Mr. Luetkemeyer. OK. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Mr. Flake.
    Mr. Flake. I just have one other question.
    Ms. Wright and others have mentioned the more effective 
sanctions or efforts to disrupt or impact the regime have been 
financial banking regulations. OFAC, or the Office of Foreign 
Assets Control, currently does that. Do they need any more 
authorization or authority from Congress to do things that they 
aren't doing now? I would like to see them be more active, not 
chasing Americans with suntans coming back from Cuba. Rather, 
they should do what might benefit us more. Do they need more 
authority from the U.S. Congress in that regard?
    Dr. Maloney, do you have thoughts on that?
    Dr. Maloney. I think, in contrast, the Treasury Department 
has been very creative in using the existing authority, and 
particularly some of the regulations passed after 9/11 that 
specifically target financial support for terrorism and 
proliferation of weapons of mass destruction, and using those 
kinds of measures in ways that they probably weren't originally 
envisioned to target Iran, to make it more difficult for Iran 
to continue to do business with the international community. 
The big dilemma of applying pain to Iran is that as long as 
they sell oil, they are making tens of billions of dollars a 
year as a regime, and I don't think that there is currently 
international support for a full-fledged oil embargo on Iran. 
But we can make what they do more difficult, more painful, and 
more expensive; and to the extent that we do that, it tends to 
hurt those who have some influence over regime policy.
    Mr. Flake. But OFAC has the authority that they need?
    Ms. Wright. I think that they have a lot, and they have 
used it very well lately.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you.
    One of the interesting things is, in Treasury, they have 
quite a defined list of Iranian Revolutionary Guard, other 
people on that from which we can choose to apply or not apply 
certain sanctions on, and they refined it quite well to move 
forward on that.
    Let me just ask one last question from me to Ms. Wright, 
whose slide show was great. Thank you very much for sharing it 
with us. There is a bill that was filed either yesterday or 
today that would seek to remove technology like Twitter or 
Google, from sanctions in Iran things like that, for non-
governmental aspects on that. What are your thoughts about 
that? What impact would it have? Would you be favorably 
disposed to it, or not?
    Ms. Wright. I think the opposition would be stunned and 
pleased that the Congress was enlightened enough to understand 
something like that. The regime would probably use it for its 
own ends, but if it would actually--and I don't know the answer 
to this question--if it would actually change the accessibility 
of technology to the opposition. This has been one of the big 
obstacles. Just like the Revolution in 1979 was the most modern 
revolution in the use of the fax machine and the tape cassette, 
what these kids have done is really unbelievable given that 
they don't have the same kind of access that we do, and how 
they have gotten around the bans by the government. So it is a 
very creative idea.
    Mr. Tierney. I didn't mean to imply to our other three 
panelists that they couldn't Twitter or Google on that, just 
that you had done the presentation. I thought that you 
probably, with your background, had a better insight into it.
    Are there any members of our panel who have a comment that 
they want to share with us, one they feel that they wouldn't 
have told us all that they need to tell us before they leave if 
we don't cover that area?
    [No response.]
    Mr. Tierney. Then I want to thank all of you very, very 
much. You were terrific witnesses; you helped us get a focus on 
this and we appreciate your time and your information. Thank 
you very much.
    Meeting adjourned.
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
